Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203

D

i=r-c9:' '

DATE FILED: August 19, 2015
il

51r7

3

Certiorari to Court of Appeals, 2017CA1010
District Court, Pitkin County, 2012CV97Petitioner:
Supreme Court Case No:
2019SC100

Edward Lee Mulcahy, Jr.,
v.
Respondent:
Aspen Skiing Company.
ORDER OF COURT

Upon consideration of the Petition for Writ of Certiorari to the Colorado
Court of Appeals and after review of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of Certiorari shall be, and the
same hereby is, DENIED.

BY THE COURT, EN BANC, AUGUST 19, 2019.

1908190047 2438 141-1005 2

DATE FILED: September 4, 2019

Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203
Certiorari to Court of Appeals, 2017CA1010
District Court, Pitkin County, 2012CV97
Petitioner:

Supreme Court Case No:
201950 00

Edward Lee Mulcahy, Jr.,
v.
Respondent:
Aspen Skiing Company.
ORDER OF COURT

Upon review of the Petition for Rehearing filed in the above cause, and now
being sufficiently advised in the premises,
IT IS ORDERED that said Petition for Rehearing is DENIED. C.A.R.
40(c)(3) (No petition for rehearing may be filed after denial of a petition without
explanation).

BY THE COURT, SEPTEMBER 4, 2019.

1909040063 1861 78-1005 2

